^

CO

NO/9
WkIS

..1
In The Supreme Court Of The United States
Lee Mulcahy, PhD, pro se
V.
Aspen Ski Company

c_e-r-1-- Pre-fl`h‘aY)
APPLICATION FOR EXTENSION OF TIME FOR REPLY-BRIEFTO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental corporation. None of the petitioners
has a parent corporation or shares held by a publicly traded company. The Defendant,
Aspen Skiing is a corporation.

TO THE HONORABLE SONIA SOTOMAYOR, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UN11ED STATES AND CIRCUIT JUSTICE FOR THE TENTH CIRCUIT

Pursuant to Supreme Court Rules 15, 22, 30 and 33.2, Petitioner Lee Mulcahy, pro se,
respectfully requests a 60-day extension of time, up to and including January 16, 2020, to
file a reply brief on the merits to the United States Supreme Court in order to secure legal
counsel. The Colorado Supreme Court denied my writ of certiorari on August 19, 2019.
The jurisdiction of this Court was invoked under 28 U.S.C. § 1257(a), and the time to file
a timelyzeply-brief will expire withOut an extension on November 17, 2019. This

RECEIVED
DEC - 5 2019
OFFICE OF THE CLERK

SUPREME COURT, U.S.

RECEIVED
NOV -5 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

application is timely because it has been filed ten days prior to the date on which the
time for filing the reply brief is to expire.
The question presented is whether the ban instituted by Aspen Skico on public
lands while I was distributing a living wage union flyer violated my constitutional
rights to free speech under the first amendment and Colorado's Constitution.
(Attaching copies of Colorado Supreme Court, Colorado Court of Appeals, and
District Court opinions as Appendix A)
Aspen, Colorado is a town of 6788 residents. Aspen Skiing employs over 4000
people in the town of 6788.
I am an Eagle Scout and have volunteered thousands of hours for my community.
Our Sheriff believes that the ban it is not American. My paintings are in and have
been shown in museums in both Berlin and Nairobi and galleries all over the
world including Aspen, Prague and Beijing. I am not an attorney.
The American people are no longer partners of government. We are subjects.
The American dream is disappearing as little people lose faith in our institutions
and our justice system.
The politicization of our justice system continues unabated.
America was born out of an act of treason. While many in Aspen may not agree
with my libertarian politics or conservative anti-government beliefs, the freedom
to dissent is one that we all should cherish. Whether you are an Occupy Wall
Street protester or an anti-government Tea Partier in the mountains, your right to

protest and live in peace deserves the respect of our government and all that live
under it.
Some view this as my biggest mistake: I blew the whistle on Aspen Skiing's illegal
labor policies. Skico (owned by Chicago billionaire Lester Crown) got busted by
the feds. Subsequently, Skico and their sycophants have sought to make an
example of me for anyone else attempting to make them obey state and federal
labor laws. Their Vice President complained to the newspaper that the National
Labor Relations Act was a tired old law that was not relevant to current
conditions. It's still the law. Skico was forced to sign settlements in 2011. Why
was this mistake? My neighbors say that in Aspen everyone knows that "you
cannot criticize the Crown family" (nee Krinsky.) Why? Because they own
General Dynamics. Lester Crown's bribery of public officials and continually
getting caught lying about his involvement in this felony has been the subject of
numerous articles in the Chicago Tribune & New York Times.
District Judge Chris Seldin admitted in court that he was a member of the Aspen
Institute's Lester Crown Society of Fellows for "over a decade." The court of
appeals wrote that "the judge was a member of the Society of Fellows of the
Aspen Institute periodically over a fourteen-year (14) period...." Lester's son
chairs the Aspen Institute's board. Once Lester's current judge Chris Seldin was
appointed, Lester's Democratic machine that has held power for decades moved
to have me evicted from the home my family built with our own hands.
Colorado's history on judicial rulings for labor activists we.... Judge Seldin

"
er
rAilet,-, I 7fr
/o u-e 4- Sty Port.
ii)./v1

doe ufv/P-417fedyisae) -P-444,Kili • I aAlk
yym
s e s pe. c 07 Go)

)41. *0 Car)Atc1"4111 ;Ad di) , Jute G r

s

OL

knows that in the United States of America if you punish a whistleblower, you'll
be rewarded. Phillip Taft and Phillip Ross, both scholars of American labor
violence concluded that "there is no episode in AMerican labor history in which
violence was as systematically used by employers as in the Colorado labor war of
1903 and 1904." In these battles between labor (little people) and capital, between
miners and mine owners, the state government with one exception sided with
capital. And so it continues.
Tribalism in humans run deep. My family volunteers our time and resources with
our church providing clean water wells and humanitarian aid in Kenya where
there are 42 tribes. Here in the United States, some state we have two main
tribes: the Republicans and the Democrats. The Democrats control Aspen, its
city council and board of county commissioners which have blocked all hearings,
settlements and mediation. The Mulcahy's are Tea Party Republicans.
Out of state owner of Aspen Ski Lester Crown and his Judge Chris Seldin are
Jewish. My family feels crucified by both. History shows tribalism is
destructive. I would note that my family in the spirit of community put my
Father's name on the first and second floors of the Jewish temple on Main Street
of Aspen in the spirit of community Both local rabbis signed our petition of over
2000 signatures to Aspen's city council and Judge Seldin.
Justice Brandeis stated in his dissent in Olmstead v. United States, "Decency,
security and liberty alike demand that government officials shall be subjected to
the same rules of conduct that are commands to the citizen. In a government of

laws, existence of the government will be imperiled if it fails to observe the law
scrupulously. If the government becomes a lawbreaker, it breeds contempt for
the law; it invites every man to become a law unto himself; it invites anarchy."
To paraphrase Pulitzer Prize winning Glenn Greenwald: One of the principal
institutions devoted to monitoring and checking abuse of state power is the
political media. The theory of a 'fourth estate' is to ensure government
transparency and provide a check on overreach.... But that check is only effective
if journalists act adversarially to those who wield political power. Instead, the
Aspen Times has frequently abdicated this role, being subservient to the
government's interests, even amplifying, rather than scrutinizing, its messages and
carrying out its dirty work.
Chicago billionaire Lester Crown controls one of America's largest fortunes. The
New York Times writes: "On the face of it, the issue seemed less than
monumental: the Pentagon was seeking to revoke a businessman's top-secret
security clearance. The significance lay in the nature of the evidence, the financial
and political stakes involved and the identity of the accused: 61-year-old Lester
Crown, head of the billionaire Chicago family that controls America's largest
defense contractor, the General Dynamics Corporation. Among those who
appeared or offered affidavits in his behalf: Three former Secretaries of State, two
former Secretaries of Defense, and former Secretaries of Treasury and Commerce.
Henry Kissinger praised Crown's 'extraordinary probity.' Robert McNamara had
'every confidence in his integrity.' David Packard, co-founder of the

a

Hewlett-Packard Company and head of a Presidential commission that had just
recommended sweeping changes in the organization of the Defense Department,
vouched for his 'trustworthiness."
15. Consequently, it has been very difficult to obtain legal counsel. No one wants to
take this case on even with a paid retainer. I am a peon taking on a powerful
ruthless billionaire who entertains Supreme Court justices in his homes and no
one wants to tackle this one.
Accordingly, Pro Se petitioner respectfully prays that an order be entered extending the
time to file a reply-bpief on the merits for 60 days, up to and including January 16, 2020 to
obtain legal counsel for assistance in filing this petition.

Respectfully submitt
Lee Mulcahy, Pro Se
53 Forge Rd., Aspen CO 81611 970.429.8797
October 30, 2019

CERTIFICATE OF SERVICE
I certify that a true and accurate copy of this extension was hand delivered to
APCHA and placed in the United States mail, postage prepaid, and addressed to the
following parties on October 30, 2019:
Tierney Lawrence LLC
225 E. 16th Avenue, Suite 350
Denver, CO 80203
eramey@tierneylawrence.com
(720) 242-7585
(303) 949-7676 (cell)

